CERTIFICATE OF SERVICE
No. 20-1137
CALIFORNIA PARENTS FOR THE EQUALIZATION OF EDUCATIONAL MATERIALS;
VISHNUKUMAR THUMATI, individually and as parent and next friend of P.T. and
N.T.; and SHAILESH SHILWANT, individually and as parent and next friend of P.S.
and P.S.S.,
Petitioners,
v.
TOM TORLAKSON, in his official capacity as State Superintendent of Public
Instruction and Director of Education for the California Department of Education,
et al.,
Respondents.
I, Carter G. Phillips, do hereby certify that, on this first day of April, 2021, I
caused a copy and an electronic copy of the Reply Brief for Petitioners in the
foregoing case to be served by first class mail, postage prepaid, and by email, on the
following parties:
ELIZABETH SYDNEY STEIN
California Department of Education
1430 N Street, Room 5319
Sacramento, CA 95814
(916) 319-0860
estein@cde.ca.gov

KATHERINE ANN ALBERTS
Leone & Alberts
2175 N. California Boulevard, Suite 900
Walnut Creek, CA 94596
(925) 974-8600
albertsk@stubbsleone.com

ALESA SCHACHTER
Johnson Schachter & Lewis APC
2180 Harvard Street, Suite 560
Sacramento, CA 95815
(916) 921-5800
alesa@jsl-law.com

JOHN GARLAND GHERINI
University of California
Office of the General Counsel
1111 Franklin Street, 8th Floor
Oakland, CA 94607-5200
(510) 987-0863
john.gherini@ucop.edu

STEVE NGO
Lozano Smith
2001 Main Street, Suite 500
Walnut Creek, CA 94596
(925) 953-1620
sgno@lozanosmith.com
/s/ Carter G. Phillips
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

